OIG Investigative Reports New York, December 09, 2010 - Manhattan U.S. Attorney Charges Former Iona College Vice President of Finance with Embezzlement of Over $1.2 Million (HTML)
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
United States Attorney
Southern District of New York
FOR IMMEDIATE RELEASE
DECEMBER 9, 2010
CONTACT: U.S. ATTORNEYS OFFICE
ELLEN DAVIS,
EDELI RIVERA,
JESSIE ERWIN
PUBLIC INFORMATION OFFICE
(212) 637-2600
DOE OIG
CATHERINE GRANT
PUBLIC INFORMATION OFFICE
202- 245-7023
Manhattan U.S. Attorney Charges Former Iona College Vice President of Finance with Embezzlement of Over $1.2 Million
PREET BHARARA, the United States Attorney for theSouthern District of New York, and BRIAN HICKEY, the SpecialAgent-in-Charge of the Northeast Region of the U.S. Department ofEducation, Office of the Inspector General, announced today thearrest of MARIE E. THORNTON, the former Vice President of Financefor Iona College, on charges of embezzling more than $1.2 millionfrom Iona College over the course of a ten-year time period.THORNTON surrendered this morning and was presented in Manhattanfederal court today.
As alleged in the Information filed in Manhattanfederal court:
From about 1999 to about May 2009, THORNTON caused morethan $1.2 million belonging to Iona College to be diverted to herpersonal use by, among other things, submitting false vendorinvoices for reimbursement to Iona College and submitting creditcard bills for personal expenses to be paid by Iona College.
Mr. BHARARA praised the investigative work of the U.S.Department of Education, Office of Inspector General.
The case is being prosecuted by the Office’s PublicCorruption Unit. Assistant U.S. Attorney CARRIE H. COHEN is incharge of the prosecution.
The charges in the Information are merely accusations,and the defendant is presumed innocent unless and until provenguilty.
10-386
###
Top
Printable view
Last Modified: 02/17/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov